OIG Investigative Reports, Newark NJ September 02. 2010 - New Jersey City University Employee, Husband Indicted for Stealing Hundreds of Thousands from Student Government Organization
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney
District of New Jersey
FOR IMMEDIATE RELEASE
September 02, 2010
CONTACT: 	 Rebakah Carmichael
Office of Public Affairs
PUBLIC INFORMATION OFFICE
(973) 645-2888
NEW JERSEY CITY UNIVERSITY EMPLOYEE, HUSBAND INDICTED
FOR STEALING HUNDREDS OF THOUSANDS FROM
STUDENT GOVERNMENT ORGANIZATION
NEWARK, N.J. – The suspended office manager for the New Jersey City University
(“NJCU”) Student Government Organization (“SGO”) and her husband were indicted today by a
federal grand jury for allegedly running a scheme to steal funds from the university through
unauthorized checks, United States Attorney Paul J. Fishman announced.
Shaunette R. Moody, 48, and Alexander Moody, 51, both of Jersey City, N.J., are each
charged with conspiring to steal the funds. Shaunette Moody is also charged with theft from an
organization receiving federal benefits; Alexander Moody is charged with aiding and abetting
that theft. The total loss of NJCU funds resulting from the scheme exceeded $420,000.
The Moodys are currently in state custody and are expected to appear to face the charges
in the Indictment as early as next week in Newark federal court.
According to the Indictment filed in this case:
The Moodys conspired to exploit Shaunette Moody’s duties as the SGO office manager
by issuing unauthorized checks made payable to themselves and others. Between May 7, 2007,
and June 25, 2010, Shaunette Moody caused at least 237 checks to be fraudulently issued from
the SGO, many of which were payable to her or her husband. The signatures authorizing most of
the checks were forged. At least 219 of the checks were cashed, for a total value of $424,880.97.
The defendants each face a maximum potential penalty of five years in prison on the
conspiracy charge and a maximum potential penalty of 10 years in prison on the substantive theft
charges. Each charge also carries a fine of twice the gross gain or loss resulting from the offense.
U.S. Attorney Fishman credited special agents of the Internal Revenue Service – Criminal
Investigation, under the direction of Special Agent in Charge Victor W. Lessoff in Newark, and
special agents of the U.S. Department of Education, Office of the Inspector General, under the
direction of Special Agent in Charge Brian Hickey, for the continuing investigation which led to
the Indictment.
The government is represented by Assistant U.S. Attorney Randall H. Cook of the United
States Attorney’s Office Criminal Division in Newark.
The charges and allegations made in the Indictment are merely accusations, and the
defendants are considered innocent unless and until proven guilty.
10-248
###
Top
Printable view
Last Modified: 10/04/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov